           Office of Inspector General




                                   July 23, 2004

                                   RUDOLPH K. UMSCHEID
                                   VICE PRESIDENT, FACILITIES

                                   SUBJECT: Management Advisory – Repairs and
                                            Alterations of Postal Service Facilities
                                           (Report Number CA-MA-04-005)

                                   This report presents the results of our self-initiated review of
                                   repairs and alterations of Postal Service facilities (Project
                                   Number 04XG004CA000).

Results in Brief 	                 During fiscal year (FY) 2003, Postal Service officials in the
                                   Dallas District effectively managed expensed repairs and
                                   alterations for Postal Service buildings and leased facilities.
                                   Specifically, district administrative service office (ASO)
                                   personnel developed an annual plan for expensed repairs
                                   and alterations projects, and they started or completed all
                                   approved expensed repairs and alterations projects during
                                   FY 2003. However, in FY 2003, there was an appearance
                                   that the Dallas District did not appropriately use funds
                                   budgeted for expensed repairs and alterations, which would
                                   cause Postal Service facilities to require more costly future
                                   repairs.

                                   To address this issue, the Southwest Area established a
                                   procedure in FY 2004 to use each district’s budget proposal
                                   to allocate funds to the districts. This made the districts
                                   accountable for projects, resolved the surplus funding for
                                   expensed repairs and alterations, and reduced the
                                   appearance that the Dallas District did not appropriately use
                                   funds budgeted for expensed repairs and alterations.
                                   Therefore, we did not recommend further action and will not
                                   conduct any further audit work.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Repairs and Alterations of                                                                             CA-MA-04-005
 Postal Service Facilities



                                  The Postal Service could also enhance the credibility of
                                  Facilities Management System for Windows (FMSWIN) to
                                  assist in making management decisions. The Dallas ASO
                                  personnel responsible for expensed repair and alteration
                                  projects in the Dallas District did not always close or update
                                  rollover projects in FMSWIN. As a result, management
                                  cannot rely on the accuracy of the data in FMSWIN for
                                  making management decisions about workloads and
                                  ongoing projects.

                                  We recommended that the Postal Service enhance its policy
                                  on construction projects to include timely updates to
                                  FMSWIN for expensed repairs and alterations, and
                                  communicate that requirement to applicable personnel.

                                  Management agreed with the recommendation and plans to
                                  have corrective action in place by July 30, 2004, that is
                                  responsive to our recommendation. Management’s
                                  comments, in their entirety, are included in Appendix B of
                                  this report.

Background 	                      The Postal Service incurs expenditures for both capital and
                                  expensed repairs and alterations. Capital expenditures are
                                  projects costing $5,000 or more that provide new features,
                                  increased space, or significant extension of useful life.
                                  Expenditures that do not meet those requirements, including
                                  capital-type projects up to $5,000 and routine repair and
                                  maintenance projects, are expensed.

                                  As of April 2004, the Postal Service owned 8,771 facilities
                                  and leased 28,337 facilities, totaling over 318 million square
                                  feet. The actual repair and alteration expenses for these
                                  facilities were $158.1 million for FY 2003. In the Dallas
                                  District, the Postal Service owned 136 facilities and leased
                                  315 facilities, totaling over 5.4 million square feet. The
                                  actual repair and alteration expenses for facilities in the
                                  Dallas District were $1.4 million for FY 2003.

                                  District ASOs are responsible for most facilities’ expensed
                                  repairs and alterations less than $250,000. As part of the
                                  preparation process for the District’s five-year plan,1 the
1
 Handbook RE-13, Section 111.1, Repairs and Alterations of Real Property Facilities, requires each district to
develop a five-year plan to maintain existing buildings and building-related systems in an acceptable operating
condition.




                                                          2
Repairs and Alterations of                                                          CA-MA-04-005
 Postal Service Facilities


                             Dallas District ASO was also responsible for scheduling and
                             performing inspections to identify district facilities’ needs for
                             expensed repairs and alterations. However, during the
                             capital freeze of 2001, Facilities Headquarters discontinued
                             the use of the five-year plan and limited expensed repairs
                             and alterations to resolving emergency, safety, and legal
                             issues. As a result, the Dallas District ASO no longer
                             performed scheduled inspections. Subsequently, the Postal
                             Service replaced the freeze with constraints on spending,
                             and allowed maintenance of facility infrastructure in addition
                             to resolving emergency, safety, and legal issues. In
                             FY 2003, the Vice President, Finance, Controller, advised
                             that all areas received funds for expensed repairs and
                             alterations to allow for minor repairs on facilities to maintain
                             the existing infrastructure and prolong major investments.

                             The Dallas District ASO develops an annual plan for
                             expensed repairs and alterations based on requests from
                             postmasters and installation heads for specific
                             nonemergency repairs and alterations. Emergency repairs
                             occur throughout the year and generally take priority over
                             expensed repairs and alterations included in the annual
                             plan.

                             Area offices provide funding for expensed repairs and
                             alterations on line 3b of the districts’ budgets. For FY 2003,
                             the Southwest Area allocated $2.2 million to the Dallas
                             District.

Objectives, Scope,           Our survey objective was to determine whether the Postal
and Methodology              Service was effectively managing expensed repairs and
                             alterations for Postal Service buildings and leased facilities.
                             Specifically, we determined whether the Postal Service
                             planned and performed expensed repairs and alterations to
                             avoid more costly repairs in the future as building conditions
                             deteriorate, and appropriately utilized the funds budgeted
                             for expensed repairs and alterations. We limited our review
                             to FY 2003 expensed repairs and alterations in the Dallas
                             District, as discussed with Postal Service management on
                             January 21, 2004.

                             To achieve these objectives, we reviewed applicable
                             policies and procedures; interviewed personnel in the Dallas
                             District, Southwest Area, Facilities Service Office, and
                             Facilities Headquarters; and reviewed project files for a




                                                3
Repairs and Alterations of                                                                       CA-MA-04-005
 Postal Service Facilities


                                judgmental sample of repairs and alterations to determine
                                whether the repairs were properly planned and performed.

                                We identified a universe of 193 expensed repairs and
                                alterations projects totaling $1.4 million2 in the Dallas
                                District for FY 2003. Budget data3 indicated that in
                                FY 2003, the Dallas District was allotted $2.2 million and
                                expended $1.4 million for expensed repairs and alterations.

                                We extracted the universe of expensed repairs and
                                alterations projects for FY 2003 from FMSWIN and
                                compared it to the FY 2003 plan for expensed repairs and
                                alterations. We then identified emergency projects and
                                the costs of those projects. We judgmentally sampled
                                28 projects and reviewed the project files to verify that the
                                repairs and alterations were properly planned and
                                performed. We interviewed personnel from the District
                                ASO, the Facilities Service Office (FSO), and Facilities
                                Headquarters regarding procedures for planning and
                                performing expensed repairs and alterations and using
                                budgeted funds for expensed repairs and alterations. We
                                also reviewed Postal Service policies and procedures and
                                obtained and reviewed documentation to support the
                                performance of planned projects and the use of budgeted
                                funds.

                                This review was conducted from January through July 2004
                                in accordance with the President’s Council on Integrity and
                                Efficiency, Quality Standards for Inspections. We discussed
                                our observations and conclusions with appropriate
                                management officials and included their comments where
                                appropriate.

                                We relied on computer-processed data obtained from
                                FMSWIN to extract the universe of expensed repairs and
                                alterations projects active in FY 2003 for the Dallas District.
                                We also relied on the Postal Service Financial Reporting
                                System to identify the budgeted and actual expenditures for
                                expensed repairs and alterations in the Dallas District for
                                FY 2003. We believe the computer-generated data was


2
  The $1.4 million expended for repairs and alterations included 79 planned repairs and alterations projects for
FY 2003 totaling $483,804; and 114 emergency projects totaling $840,444. The remaining $127,752 was attributable
to purchases made with International Merchant Purchase Authorization Cards (IMPAC) or Postmaster purchases.
3
  Data was obtained from the Postal Service Financial Reporting System.




                                                       4
Repairs and Alterations of                                                        CA-MA-04-005
 Postal Service Facilities



                             sufficiently reliable for that purpose. We did not rely on any
                             computer-generated data to support the opinions or
                             conclusions in this report.

Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                             objective of this review.

The Postal Service           During FY 2003, Postal Service officials in the Dallas District
Effectively Managed          effectively managed expensed repairs and alterations for
Repairs and                  Postal Service buildings and leased facilities. Specifically,
Alterations and              District ASO personnel developed an annual plan for
Appropriately Utilized       expensed repairs and alterations based on requests from
Budgeted Funds               postmasters and installation heads and submitted it to the
                             Southwest Area for approval. Additionally, expensed
                             repairs and alterations projects that had been approved
                             were all started or completed during FY 2003. However, in
                             FY 2003, the Southwest Area allocated funds to the Dallas
                             District for repairs and alterations based on previous years’
                             expenses and an inflation rate, which was not
                             commensurate with the cost of completing planned and
                             emergency expensed repairs. This created the appearance
                             that the Dallas District did not appropriately use budgeted
                             funds for expensed repairs and alterations, which would
                             cause facilities to need more costly repairs in the future.

                             In FY 2004, the Southwest Area established a procedure to
                             use each district’s budget proposal to allocate funds to the
                             districts, which made the districts accountable for projects
                             and resolved the surplus funding for expensed repairs and
                             alterations. Consequently, this reduced the appearance
                             that the Dallas District did not appropriately use budgeted
                             funds for expensed repairs and alterations, which would
                             cause facilities to need more costly repairs in the future.

                             Because the Southwest Area implemented this change in
                             the budget process for FY 2004, we did not recommend any
                             further action and will not conduct further audit work.

Opportunity to               The Postal Service could increase the accuracy of FMSWIN
Increase Accuracy of         to assist in making management decisions. Dallas ASO
FMSWIN                       personnel responsible for expensed repair and alteration
                             projects in the Dallas District did not close or update
                             20 rollover projects in FMSWIN that were started in
                             FYs 1997 through 2001. In a meeting on April 1, 2004,



                                               5
Repairs and Alterations of                                                       CA-MA-04-005
 Postal Service Facilities


                             Dallas ASO personnel acknowledged that they should have
                             closed or updated these projects in FMSWIN.

                             Headquarters Facilities personnel provide a list of aging
                             expensed projects to each FSO annually. The FSOs then
                             provide lists to each district ASO for a response or action to
                             update or close expensed repair and alteration projects in
                             FMSWIN. Although the Postal Service has a procedure for
                             closing or updating projects in a timely manner in FMSWIN,
                             Dallas ASO personnel did not always follow the procedure.
                             As a result, management cannot rely on the accuracy of the
                             data in FMSWIN for making management decisions about
                             workloads and ongoing projects.

                             We recognize that the existing policy for construction
                             projects helps ensure timely updates of FMSWIN.
                             However, it does not address updating FMSWIN for
                             expensed repairs and alterations. Enhancing this policy to
                             include repairs and alterations would increase the accuracy
                             of the data in FMSWIN.

                             During a meeting on April 1, 2004, management agreed that
                             the current requirement for timely updates of FMSWIN
                             should be reemphasized with field personnel.

Recommendation               We recommend the Vice President, Facilities:

                             1. 	   Enhance the Postal Service policy on construction
                                    projects to include timely updates of FMSWIN for
                                    expensed repairs and alterations, and communicate
                                    that requirement to applicable personnel.

Management’s                 Management agreed with the recommendation.
Comments                     Management has procedures in place for closing or
                             updating capital and expense projects in FMSWIN and has
                             issued several reminders to the field in the past about the
                             requirement. The reminders normally included a report on
                             capital projects that were candidates for closeout or
                             cancellation. Management agreed to enhance this process
                             by including expense repair and alteration projects in the
                             report by July 30, 2004.




                                               6
Repairs and Alterations of                                                     CA-MA-04-005
 Postal Service Facilities




Evaluation of                Management’s comments are responsive to the
Management’s                 recommendation, and actions taken or planned should
Comments                     correct the issues identified in the finding.

                             We appreciate the cooperation and courtesies provided by
                             your staff during the review. If you have any questions or
                             need additional information, please contact Lorie Siewert,
                             Director, Supply Management and Facilities, or me at
                             (703) 248-2100.




                             Colleen A. McAntee
                             Deputy Assistant Inspector General
                              for Financial Management

                             Attachment

                             cc: Patrick R. Donahoe
                                 George L. Lopez
                                 Carl January
                                 George Overby
                                 Joseph K. Moore




                                              7
Repairs and Alterations of                                                CA-MA-04-005
 Postal Service Facilities


                             APPENDIX A. ABBREVIATIONS
FY                                 Fiscal Year
FMSWIN                             Facilities Management System for Windows
ASO                                Administrative Service Office
FSO                                Facilities Service Office
OIG                                Office of Inspector General




                                           8
Repairs and Alterations of                             CA-MA-04-005
 Postal Service Facilities


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                   9

Repairs and Alterations of         CA-MA-04-005
 Postal Service Facilities




                             10

